Preaward Audit of the Government of Jamaica’s
Ministry of Justice and Ministry of National Security

Audit Report No. 1-532-02-001-F

January 31, 2002




          Regional Inspector General / San Salvador
U.S. Agency for
  International
  Development

RIG/San Salvador

January 31, 2002

MEMORANDUM
FOR:               USAID/Jamaica Director, Mosina H. Jordan

FROM:              Acting RIG/San Salvador, Steven H. Bernstein

SUBJECT:           Preaward Audit of the Government of Jamaica’s Ministry of Justice
                   and Ministry of National Security (Report No. 1-532-02-001-F)

This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on our draft report. Your comments are included in their
entirety in Appendix II.

This report contains one recommendation for your action. Final action has been
taken and, therefore, the recommendation is closed upon issuance of this report.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                       1
Table of   Summary of Results                                                 3
Contents
           Background                                                         3

           Audit Objective                                                    4

           Audit Findings                                                     4

                  Do the Government of Jamaica’s Ministry of
                  Justice and Ministry of National Security have sufficient
                  financial management capacity to manage USAID funds
                  in accordance with U.S. government and USAID
                  requirements?                                               4

                         The Ministries lack a system to track and
                         account for non-expendable property                  5

           Management Comments and Our Evaluation                             6

           Appendix I - Scope and Methodology                                 7

           Appendix II - Management Comments                                  9




                                                                                  2
Summary of   At the request of USAID/Jamaica, the Regional Inspector General/San Salvador
Results      performed this preaward audit to determine whether the Government of Jamaica’s
             Ministry of Justice and Ministry of National Security have sufficient financial
             management capacity to manage USAID funds in accordance with U.S. government
             and USAID requirements. (See page 4.)

             We found that the Government of Jamaica’s Ministry of Justice and Ministry of
             National Security did have sufficient financial management capacity to manage
             USAID funds in accordance with U.S. government and USAID requirements.
             However, the ministries did not implement a system to track and account for non-
             expendable property. (See pages 4 through 6.)

             USAID/Jamaica agreed with our report and recommendation and final action has
             been taken. (See page 7.)



Background   USAID/Jamaica on September 28, 2001 signed a strategic objective grant agreement
             with the Government of Jamaica for improved citizen security and participation in
             democratic processes. This grant will provide approximately $13 million in USAID
             funding, while the Government of Jamaica will contribute approximately $1.6
             million.

             Under this agreement, USAID/Jamaica will work with the Ministry of Justice and
             Ministry of National Security to broaden and deepen civil society and empower
             citizenry through civic education and community-based activities. In addition,
             this agreement intends to improve the efficiency of the court system.

             The grant will finance a number of activities for the purpose of achieving the
             objective, as noted above, and two key intermediate results: “Civil Society More
             Actively Engaged in Issues of Governance” and “Improved Community-Police
             Relations and Efficiency of the Justice System.”

             As of November 1, 2001, the Ministry of National Security and Justice was
             divided into two new ministries: The Ministry of Justice and the Ministry of
             National Security. The two new ministries are using the same accounting and
             financial systems, policies and procedures.




                                                                                                3
Audit       At the request of USAID/Jamaica, the Regional Inspector General/San Salvador
Objective   performed the preaward audit to answer the following question:

            •      Do the Government of Jamaica’s Ministry of Justice and Ministry of
                   National Security have sufficient financial management capacity to manage
                   USAID funds in accordance with U.S. government and USAID
                   requirements?

            Our audit entailed the review of six areas: accounting system; internal control;
            proposed project costs; financial management capability; compliance with
            applicable laws, regulations and agreement terms; and prior audit recommendations.
            Appendix I describes the audit’s scope and methodology.


 Audit      Do the Government of Jamaica’s Ministry of Justice and Ministry of National
 Findings   Security have sufficient financial management capacity to manage USAID
            funds in accordance with U.S. government and USAID requirements?

            The Government of Jamaica’s Ministry of Justice and Ministry of National
            Security do have sufficient financial management capacity to manage USAID
            funds in accordance with U.S. government and USAID requirements. The six
            areas reviewed in our audit are discussed in detail in the following sections of the
            report.

            Accounting System and Internal Control

            Both ministries have an acceptable accounting system that is capable of segregating
            USAID revenues and costs from those of other projects. Both ministries intend to
            work with USAID/Jamaica to determine what accounting and financial information
            needs to be captured to prepare a fund accountability statement and a cost sharing
            schedule. Accounting system entries are up to date. Bank statements are reconciled
            timely with the accounting records. Control over bank accounts and payments is
            adequate. In addition, both ministries intend to establish a distinct bank account for
            the USAID funds once the disbursement of funds is approved.

            Internal control is acceptable for procurement, budgeting, accounting, payments,
            and payroll. The current staffing levels provide an adequate segregation of duties
            among the accounting and finance staff. The ministries have written procedures
            for the budgeting, purchasing, accounting, and treasury functions. However, the
            ministries lack control over non-expendable property.




                                                                                                     4
The Ministries Lack a System to Track and Account for Non-Expendable
Property

According to the U.S. General Accounting Office’s “Standards for Internal
Control in the Federal Government,” (GAO/AIMD-00-21.3.1, dated November
1999) an agency must establish physical control to secure and safeguard
vulnerable assets. Such assets should be periodically counted and compared to
control records. The ministries did not implement such a system because it was
not a high priority for them. As a result, the ministries are unable to track and
account for non-expendable property. USAID/Jamaica intends to provide
approximately $500,000 for non-expendable property.

       Recommendation No. 1:       We recommend that USAID/
       Jamaica obtain evidence that the Government of Jamaica’s
       Ministry of Justice and Ministry of National Security have
       implemented a system to track and account for non-
       expendable property before the mission disburses any funds
       for the purchase of non-expendable property.

Proposed Project Costs

A detailed plan for fulfilling the $1,625,000 cost sharing requirement has not been
elaborated. In this area, USAID/Jamaica will be responsible for providing the
necessary oversight and training of ministry officials. Therefore, we are not
making any recommendations since the programming, implementation,
coordination and monitoring of the program have not yet been developed.

Financial Management Capability

The ministries do not anticipate significant changes to their organizational structure
to manage the USAID agreement. The current staffing levels will be sufficient in
terms of numbers, experience, responsibilities, workload, and/or expertise, although
the ministries may employ one or two additional people. Our review of the
qualifications of current financial management staff indicates that they have the
technical expertise to manage current operations and the capacity to prepare
financial statements. In addition, we discussed the financial statement requirements
for USAID programs with ministry officials who adequately demonstrated their
understanding of these requirements.




                                                                                     5
                 Compliance with Laws, Regulations, and Agreement Terms

                 We reviewed the ministries’ ability to comply with certain terms of the
                 agreement, such as the provisions for (1) utilization of goods and services, (2)
                 taxation, and (3) reports and information, agreement books and records, audits
                 and inspections. Our review indicated that the ministries will be able to comply
                 with these requirements.

                 Prior Audit Recommendations

                 The ministries had not previously received USAID funds so there are no prior
                 audit recommendations.

                 Other Issues

                 We identified another finding, which was not significant to the audit objective and
                 thus, is not reported in this audit report. This finding pertained to the accounting
                 of cost sharing expenditures. This finding was communicated to USAID/Jamaica
                 by a separate memorandum dated January 31, 2002.



Management       In its comments to our draft report, USAID/Jamaica accepted the
Comments and     recommendation and implemented it. The mission submitted a certification from
Our Evaluation   the Government of Jamaica’s Ministry of Justice and Ministry of National
                 Security that they implemented a system to track and account for non-expendable
                 property. Therefore, final action has been taken and the recommendation will be
                 closed upon issuance of the report.




                                                                                                    6
                                                                                      Appendix I

Scope and     Scope
Methodology
              At the request of USAID/Jamaica, the Regional Inspector General/San Salvador
              conducted a preaward audit of the Government of Jamaica’s Ministry of Justice and
              Ministry of National Security in accordance with generally accepted government
              auditing standards. The audit was conducted at USAID/Jamaica and at the Ministry
              of Justice and Ministry of National Security, which share the same location, from
              November 27, 2001 through December 3, 2001.

              This preaward audit was limited to tests of the ministries’ financial management
              capabilities. We did not review their capacity to produce performance reports or to
              develop reliable and measurable performance indicators. Similarly, we could not
              determine if financing sources were going to be sufficient to ensure a proper
              implementation of the project. Consequently, this audit report cannot be used as a
              basis to give assurance that the ministries have the capacity from a performance
              perspective to attain project goals.

              The strategic objective grant agreement was signed on September 28, 2001. The
              mission estimates that expenditures for this five-year program will reach $13
              million.

              We assessed risk exposure and the effectiveness of the Government of Jamaica’s
              Ministry of Justice and Ministry of National Security management control to
              manage USAID funds in accordance with U.S. government and USAID
              requirements. Our assessments were based on interviews with USAID/Jamaica
              and Ministry of Justice and Ministry of National Security officials, as well as a
              review of documents. Up until November 1, 2001, the two ministries were
              combined into one ministry. As a result, at the time of the audit, the senior
              finance and accounting officials handled the accounting and finance systems for
              both ministries. The management controls were reviewed in the following areas:
              accounting system; internal control; proposed project costs; financial management
              capability; compliance with applicable laws, regulations and agreement terms;
              and prior audit recommendations.

              Methodology

              The objective of this preaward audit was to determine if the Government of
              Jamaica’s Ministry of Justice and Ministry of National Security had the financial
              management capacity to manage USAID funds in accordance with U.S. government
              and USAID requirements. Our audit entailed the review of six areas: accounting
              system; internal control; proposed project costs; financial management capability;
              compliance with applicable laws, regulations and agreement terms; and prior audit
              recommendations.




                                                                                                    7
                                                                       Appendix I
In answering this audit objective, we interviewed officials as well as reviewed and
tested documentation at USAID/Jamaica and the Ministry of Justice and Ministry
of National Security.        Such documentation included organization charts,
accounting records, financial statements, the strategic objective grant agreement,
and the ministries’ procedure manuals for various functional areas including
budgeting, purchasing, and treasury. We reviewed the agreement provisions to
determine which of these could have a material effect on the ministries' project
financial management capability if not observed. We also assessed the applicable
internal control systems of several functions, particularly its accounting system.
Because the ministries had not prepared any financial reports for USAID, we instead
reviewed their financial statements.

With regard to internal control, we reviewed and obtained an understanding of the
ministries' internal control. Given the absence of actual USAID-funded transactions
and events, our assessment was limited to reviewing current controls and assessing
their applicability to the proposed USAID-funded project. The management of the
ministries is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgements by management
are required to assess the expected benefits and related costs of internal control
structure policies and procedures.

The objectives of an internal control structure are to provide management with
reasonable, but not absolute, assurance that assets are safeguarded against loss
from unauthorized use or disposition and, that transactions are recorded properly.
In addition, management implements control to reasonably ensure that a program
can meet its objectives; valid and reasonable data are obtained, maintained, and
fairly disclosed in reports; and resource use is consistent with laws and
regulations. Because of inherent limitations in any internal control structure,
noncompliance or abuse may nevertheless occur and not be detected. Also,
projections of any review of the internal control structure to future periods is
subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.




                                                                                  8
                                                                                            Appendix II

Management
Comments

                        USAID/Jamaica
                        Office of Financial Management


Memorandum
To:      Timothy Cox, Regional Inspector General, San Salvador
From:    Robin Brinkley, Acting Mission Director
CC:      Mary E. Lew, Regional Controller, USAID/Jamaica-Car.
Date:    January 16, 2002
Subject: Preaward Audit of the Government of Jamaica’s Ministry of Justice and Ministry of
         National Security (Report No. 1-532-02-00X-F)
_____________________________________________________________________________

We have reviewed the draft report on the captioned and note your conclusion that the Ministries have
the requisite financial management capabilities for managing USAID funds. We also note the following
recommendation that was made in the report.

       Recommendation No. 1: We recommend that USAID/Jamaica obtain evidence that the
       Government of Jamaica’s Ministry of Justice and Ministry of National Security have
       implemented a system to track and account for non-expendable property before disbursing
       any funds for the purchase of non-expendable property.

We have advised the Ministries of your recommendation. Please find attached their response outlining the
management of NXP under USAID funding. Once USAID funds have been expended for NXP the
Mission’s office of financial management (OFM) will perform periodic financial reviews to ensure that the
Ministries comply with the recommendation.

Please note also some other items that should be amended in your final report:

           1) On page three the final paragraph in the Background section should be adjusted to read the
              Ministry of National Security and Justice instead of the Ministry of Justice and National
              Security.

           2) On page seven in the first paragraph USAID/Jamaica should replace USAID/Colombia.

Based on the above we request that you close the recommendation No. 1.




                                                                                                        9
